                                  Management Advisory Report

                         PLP Processing Restrictions for Paying off
                                 Existing SBA Debt in a
                            Change of Ownership Transaction

                                           Report Number 5-27
                                           September 28, 2005

                                            Washington, D.C.




The finding in this report is the conclusions of the Office of Inspector General’s Auditing Division based on
testing of SBA operations. The finding and recommendations are subject to review, management decision,
and corrective action in accordance with existing Agency procedures for follow-up and resolution. This
report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, DC 20416



                                                          MANAGEMENT ADVISORY
                                                                    REPORT
                                                     Issue Date: September 28, 2005
                                                     Report Number: 5-27



To:            James Rivera, Associate Administrator,
                Office of Financial Assistance

               /s/ Original
From:          Robert G. Seabrooks,
                Assistant Inspector General for Auditing

Subject:       PLP Processing Restrictions for Paying off Existing SBA Debt
               in Change of Ownership Transactions

       Attached is a copy of the subject advisory report. The report contains one finding and
two recommendations. You concurred with both recommendations.

       The finding in the report is the conclusion of the Office of Inspector General’s Auditing
Division. The finding and recommendations are subject to your review and corrective action in
accordance with existing Agency procedures for audit follow-up and resolution.

       Please provide your management response and actions to address the recommendations
within 30 days from the date of this report on the attached SBA Forms 1824, Recommendation
Action Sheet.

       Any questions you may have regarding this report should be directed to Garry Duncan,
Director, Credit Programs Group, at (202) 205-[FOIA Ex. 2].



Attachments




                                                2
                              Management Advisory Report
                         PLP Processing Restrictions for Paying off
                 Existing SBA Debt in a Change-of-Ownership Transaction

Summary

       The purpose of this management advisory report is to inform you of an issue identified
during a review of certain loans originated by the Business Loan Center, LLC (lender). We
reviewed selected paid-in-full (PIF) loans to determine whether they were processed in
accordance with Small Business Administration (SBA) policies regarding preferred lender
program (PLP) processing restrictions for paying off existing SBA debt in a change-of-
ownership transaction.

         Our review disclosed that the lender did not comply with SBA’s PLP processing
restrictions for paying off existing SBA debt in seven separate change-of-ownership transactions.
Two transactions involved guaranty purchases for two defaulted loans totaling almost
$1.5 million. The lender has repaid the guaranty purchase amount on one of the loans. We
believe recovery of the guaranty purchase amount paid for the second defaulted loan (number
4105574007) would be appropriate. The other five transactions involved same institution debt,
whereby the lender paid off its existing SBA loans. Although the loans were current as of
August 31, 2005, we believe flagging the current loans would be appropriate. In the event of
default, guaranty purchase decisions should take into account the restrictions that made these
loans ineligible for PLP processing.

SBA guidance on lender refinancing of an existing SBA loan

        Prior to December 1, 2000, SBA had no clear policies precluding lenders from using their
PLP authority to pay off existing SBA loans in a change-of-ownership transaction. Standard
Operating Procedure (SOP) 50 10 (4), titled “Loan Processing”, dated December 1, 1997,
restricted a PLP lender from refinancing an existing loan on which it held a SBA guaranty.
However, the SOP did not consider a loan for the purchase of a business to be refinancing, even
if the proceeds were used to pay off the seller’s existing SBA loan. Also, the lender prepared
PLP checklist furnished to SBA when applying for a loan guaranty did not require disclosure of a
seller’s existing SBA loan. It only required disclosure of the purchaser’s existing SBA loans.

        On November 30, 2000, SBA published Revision “E” to SOP 50 10 (4). Revision “E”
became effective on December 1, 2000, and covered major policy changes and clarifications,
including loans to purchase businesses with outstanding SBA loans. Under Revision “E”, a new
subparagraph (e) was added to Subpart A, Chapter 2, Paragraph 12, titled “Paying off Seller Debt
is not Refinancing to Effect a Change of Ownership”. While the new policy re-stated SBA’s
position that paying off seller debt was not refinancing, it also required that if the debts of the
business being sold included existing SBA debt, the loan could not be processed under any of the
Agency’s expedited loan processing programs. In such cases, the application must be processed
by SBA under standard procedures. Revision “E”, however, did not make a distinction between
SBA debt at the same lending institution and SBA debt at a different lending institution.



                                                1
        On November 19, 2001, SBA issued Procedural Notice No. 5000-761, titled “Loan
Processing Restrictions on Paying off Existing SBA Debt and Servicing Procedure for Loan
Assumptions”. The notice became effective on November 19, 2001, and amended the second
paragraph to SOP 50 10 (4) (E), Subpart A, Chapter 2, Paragraph 12, Subparagraph (e). This
policy notice expired on November 1, 2002. SBA policy in existence prior to December 1, 2000,
did not clearly restrict a PLP lender from paying off existing loans on which it held SBA
guaranties except in the case of a refinancing. Under the existing procedures, lenders were
restricted from using their PLP authority to pay off an existing SBA loan in a change-of-
ownership situation. Under the new procedure, lenders with PLP authority could process change-
of-ownership transactions as long as the SBA guarantied loan being paid off was NOT with the
same lending institution.

PLP processing restrictions

        We obtained the lender’s paid in full (PIF) database from the Accounting Systems
Branch of SBA’s Office of the Chief Information Officer. The database consisted of 1,246 PIF
loans that were sorted by borrower street addresses. The Branch also provided a database of all
other lender loans, excluding those that had been cancelled. The database consisted of 5,105
loans and included those in regular servicing, liquidation, charged-off, and sold status. This
database was also sorted by the borrower’s street address. As such, we identified change-of-
ownership transactions by comparing street addresses in both databases. Our review showed that
14 relationships involved change-of-ownership transactions. Details of these relationships are
discussed in the following paragraphs.

Change-of-ownership transactions between December 1, 2000, and November 18, 200l

       Three change-of-ownership loan transactions were originated during this period (see
Exhibit 1 for loan transaction details). Pursuant to Revision “E” of SOP 50 10 (4), the lender
was prohibited from using its PLP authority to pay off existing SBA loans.

       The loan to Hamilton Motel (PLP-4245654009) was approved in January 2001. On the
PLP checklist, the lender did not identify that the loan paid off existing SBA debt. There
was no mention of its existing SBA loan to the seller (PLP-1805124009). As of August 31,
2005, the loan was current.

         On December 4, 2000, the lender submitted an application for a 62.5 percent guaranty on
a $1.2 million PLP loan to Yousafi, LLC d/b/a Villager Lodge (PLP-4105534006). According to
the PLP checklist, the purpose of the loan was to purchase real estate and personal property. The
lender did not identify the loan as paying off existing SBA debt. Again there was no mention of
its existing SBA loan to the seller, Home Vacation, Inc. (formerly Cook and Host, Inc) d/b/a
Village Lodge (PLP-2877904000). Six months after funding, the lender granted a three month
deferment resulting in no principal reductions to the loan between June 2001 and November
2002. In April 2004, the loan went into default and on July 7, 2004, the SBA purchased the
guaranty from the secondary market in the amount of $736,874.

       On December 4, 2000, the lender also submitted an application for a 56.20 percent
guaranty on a $1.3 million PLP loan to Yogi Hospitality, LLC d/b/a Ramada Inn
                                                2
(PLP-4105574007). According to the PLP checklist, the purpose of the loan was to purchase
real estate and personal property. Again the lender did not identify the loan as a change-of-
ownership transaction and there was no mention of its existing SBA loan to the seller, Host and
Cook, Inc. d/b/a Ramada Inn (PLP-2877894010). Six months after funding, the lender granted a
three month deferment resulting in no principal reductions to the loan between June 2001, and
July 2002. In April 2004, the loan went into default and on July 6, 2004, the SBA purchased the
guaranty from the secondary market in the amount of $737,190.

        On November 4, 2004, we provided the lender with a list of all the PIF loans under
review and asked how the loans were paid off. As a result of our inquiry, the lender on
November 15, 2004, contacted SBA’s National Guaranty Purchase and Liquidation Center
(Center) offering to repay the guaranties on the loans to Villager Lodge (PLP-4105534006) and
Ramada Inn (PLP-4105574007). The lender stated that although it had approved the loans prior
to December 1, 2000, delays in processing and closing made the loans technically ineligible for
PLP processing. As such, the lender wished to honor its obligations and requested pay-off
figures for both loans. On December 3, 2004, the lender repaid the guaranty on the loan to
Villager Lodge in the amount of $736,994.

       In an e-mail dated November 15, 2004, the SBA Loan Programs Division advised the
Center that since both loans were approved on December 4, 2000, they were subject to Revision
“E” of SOP 50 10 (4) that became effective on December 1, 2000. Under Revision “E”, lenders
were prohibited from using their PLP authority to pay off existing SBA loans in a change-of-
ownership situation. Nevertheless, while SBA “…appreciated the lender’s offer to repay the
guaranties….” it thought that the lender was imposing too harsh a penalty on itself and
recommended a repair. The following day, the Center forwarded the e-mail to the lender.

        Based on comments made in the above referenced e-mail, the lender did not repay the
guaranty on the loan to Ramada Inn. Instead, in a December 9, 2004, letter to the Center, the
lender stated that principal and interest payments on the Ramada Inn loan had been made in a
timely manner for 3½ years; however, when the borrower ran into financial difficulties in March
2004, a deferment was granted to alleviate cash flow problems. The lender’s November 15,
2004, letter to the Center also stated that it was in the process of liquidating the loan.
        The lender’s status reports to SBA, however, showed that SBA’s analysis was incorrect
as there were no principal reductions on the loan between June 2001 and July 2002. The status
reports showed other periods where there were no principal reductions. The lender also
neglected to mention that at the time of origination, the SBA loan was secured by a second
mortgage on the commercial real estate, subject to a $1.6 million first mortgage in favor of F&M
Bank-Richmond. At the time of origination, the commercial real estate and personal property
appraised at $3.6 million. The business, however, is now closed and the current appraisal as of
August 2004, valued the real estate and personal property at $940,000. Pursuant to the lender’s
liquidation plan, the first lien holder was foreclosing and negative equity under SBA’s second
position totaled over $700,000. There was no additional collateral. On February 7, 2005, the
lender acknowledged by e-mail that it expects no recovery.
Change-of-ownership transactions after November 19, 2001
   Four change-of-ownership transactions were originated during this period (see Exhibit 2 for
loan transaction details). All loans were current as August 31, 2005. Pursuant to SBA
Procedural Notice 5000-761 that amended Revision “E” of SOP 50 10 (4) as of
November 19, 2001, lenders were prohibited from using their PLP authority to pay off existing
                                               3
SBA loans at their own institutions. Specific details of the transactions follow.

      •   Under this transaction, the seller’s existing SBA loan (PLP-3068574002) had been
          approved by the lender in July 1999. In January 2003, the lender approved another loan
          for the purchase of the motel (Econolodge Bedford). The PLP checklist, however, did
          not identify the new loan (PLP-6004854008) as paying of existing SBA debt. Its stated
          purpose was to acquire real estate and personal property. The loan was funded in April
          2003. In a letter dated December 3, 2004, lender’s counsel stated that SBA had approved
          the loan prior to funding. An e-mail dated December 9, 2004, from the Little Rock Loan
          Servicing Center, however, stated that there were no SBA approvals of any kind in the
          loan file. The lender has also not provided any supporting documentation and since
          June 2004, there have been no principal reductions on the loan.

      •   Loans to A Bar Z Motel (PLP-9233263009) and Rodeway Inn (PLP-1753504002) were
          approved by Emergent Business Capital and later acquired by Transamerica. In
          September 2002, the lender acquired both loans from Transamerica. As such, when the
          lender paid off the loan to A Bar Z Motel in May 2003, it already owned the seller’s
          existing SBA loan. The PLP checklist for the new loan to Traveler Inn
          (PLP-6274224007), however, did not identify the loan as paying off existing SBA debt.
          Similarly, when the lender paid off the loan to Rodeway Inn in October 2003, it already
          owned the seller’s existing SBA loan. The PLP checklist for the new loan to Rodeway
          Inn (PLP-6744624004) also did not identify the seller’s loan as same institution

      •   A loan to Noah’s Ark Academy (PLP-4053314007) was approved by Amresco
          Independent Funding, and then purchased by the lender in January 2003. As such, when
          the lender paid off the Noah’s Ark Academy SBA loan in June 2004, it already owned
          the seller’s existing SBA loan. The PLP checklist for the new loan to Noah’s Ark
          Academy (PLP-7553164010) did not identify the seller’s loan as same institution debt.
Recommendations

We recommend that the Associate Administrator, Office of Financial Assistance take the
following actions.

A.1       Recover from the lender the guaranty paid on loan number PLP-4105574007 in the
          amount of $737,190.

A.2       In accordance with SBA Policy Notice 5000-761, flag the following current loans.
           PLP-4245654009
           PLP-6004854008
           PLP-6274224007
           PLP-6744624004
           PLP-7553164010

          If a loan defaults, the guaranty purchase decision should take into consideration that it
          was ineligible because the lender was prohibited from using its PLP authority to pay off
          the existing SBA loan.



                                                   4
Management Comments

       In response to recommendation A.1, SBA agreed to pursue full recovery of the guaranty
paid on the loan in question. See Attachment A for the management comment.

        In response to recommendation A.2, the Office of Financial Assistance agreed to flag the
five loans. It will be noted through the Guaranty Repair Tracking System procedures that these
are PLP loans with change of ownership eligibility issues and that these issues should be
carefully considered during the purchase review process.

OIG Evaluation of Management Comments

       Management comments are responsive to the recommendations.




                                               5
                                     Change of Ownership Transactions December 1,2000, to November 18,2001




          (1) On 7/7/04, SBA purchased the guarantee from the secondary market in the amount of $736,874. On 12/03/04, the lender repaid the guarantee in the
              amount of $736,994.


                                                                                                         I
    PLP Loan            Borrower                Originating   Approval Loan       Date           I Gty       PIF     Balance    Current         Balance
    No.                 Trade Name              Lender
                                                  -           Date     Amount     Funded         I%          Date    at PIF     Status          at
                        Address                 Location                                                                                        12/31/04
    2877894010          Host and Cook, Inc.     Business Loan 04/07/99 $1,000,000                            12/31/00 $993,029 PIF              N/A
                                              I nenter
                                              I Richmond, VA

                    I

    4105574007     1 Yogi Hospitality, LLC I Business Loan 1 12/04/00 1 $1,333,000


L                  I                          I              I           I             I
          (2) On 7/6/04, SBA purchased the guarantee from the secondary market in the mount of $737,1
                           Change of Ownership Transactions December 1,2000 to November 18,2001

PLP Loan        Borrower              Originating   Approval Loan     Date      Gty PIP      Balance Current Balance
No.             Trade Name            Lender        Date     Amount Funded % Date            at PIF   Status at
                Addregs               Location                                                               12/31/04
1805124009      ~ F O S AE x   b ]    Business Loan 01/27/98 $520,000 0513 1/98 75 0313 1/01 $508,324 PIF    N/A
Transaction 1                         Center
                Hamilton Motel        Richmond, V A
                4 15 S. Main Street
                Summerville, SC

4245654009 Shivam Hospitality, Inc. Business Loan 01/25/01 $575,000 03/31/01 75    N/A      N/A      Current   $538,714
Transaction 2                       Center
              Hamilton Motel        Richmond, V A
              415 S. Main Street
              Summerville, SC
                                        Change of Ownership Transactions After November 18,2001

    PLP Loan            Borrower                      Originating   Approval Loan     Date     Gty PIF     Balance Current                Balance
    No.                 Trade Name                    Lender        Date     Amount Funded % Date          at PIF   Status                at
                        Address                       Location                                                                            12/31/04
    3068574002          Savitri Corporation, Inc.     Business Loan 07/15/99 $673,000 09/30/99 75 04130103 $645,880 PIF                   NIA
    Transaction 1                                     Center
                        Bedford Econolodge            Richmond, VA
                        RD #2 Box 28
                        Bedford, PA

    6004854008 Econolodge Bedford                    Business Loan 01/09/03           $675,000 04/30/03 75       N/A   NIA     Current (3) $643,156
    Transaction 2                                    Center
                  Ekonolodge Bedford                 Richmond, VA
                  141 Hillcrest Drive
                  Bedford, PA

    (3) No principal reductions have been made on the loan since June 2004.



    PLP Loan            Borrower                   Originating       Approval Loan     Date     Gty PIF      Balance            Current Balance
    No.                 Trade Name                 Lender
                                                   -                 Date     Amount Funded % Date           atPIF              Status  at
                        Address                    Location
    9233263009 [RIGA EX.        '2                 Emergent Business 04/29/96 $880,000 04/30196 75 0513 1/03
    Transaction 1                                  Capital (4)
                  A Bar Z Motel                    Greenville, SC
                  2690 W.Highway 40
                  Craig, CO
                                          -.
    6274224007          kor  A Ek       1          Business Loan       04/25/03       $619,000 05/31/03 75       NIA   Z i j - Current
    Transaction 2                                  Center
                        Traveler Inn               New York, NY
                        2690 W. Highway 40
                        Craig, CO
I                   I                          I                   I              I           I        I     I
    (4) Lender acquired loan in September 2002 from Transamerica (successor to Emergent Business Capital).
                               Change of Ownership Transactions After November 18,2001




(5) Lender acquired loan in September 2002 from Transamerica (successor to Emergent Business Capital).




(6) Lender act ired loan in January 2003 from Amresco Independent Funding.
                                   a
                       U.S. SMALLBUSINESSADMINISTRATION
                                WASHINGTON,
                                         D.C. 20416




      DATE:        September 27,2005
         TO:       Robert G. Seabrooks
                   Assistant Inspector General for Auditing
    FROM:          James E. Rivera, AA/FA
  SUBJECT:         Management Advisory Report

This is in further response to the above referenced management advisory report. We
recently received a copy of a letter dated November 15,2004 from Leonard Rudolph to
SBA in which Business Loan Center, LLC offered to repay the amounts disbursed by the
Agency to the secondary market holders of SBA guaranteed loans to Yogi Hospitality
LLC (410-557-4007) and Yousafli, LLC (410-553-4006). The lender has repaid loan
410-553-4006 in full, and has repaid $350,000 of loan 410-557-4007 pursuant to a
"repair" action structured by the National Guaranty Purchase Center.

In view of the lender's offer to repay both loans, we concur with the recommendation in
the management advisory report with respect to recovery of the amount disbursed by
SBA to purchase loan 410-557-4007, less the payment of $350,000 already made by the
lender. We will request the lender to remit such payment.
